APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Fifth Circuit (August 29, 2019)................... la
Order of the United States District Court for the
District of Texas (November 16, 2018)............. 4a
Order of the United States District Court for the
District of Arizona (June 24, 2015).................... 9a
Order of the United States Court of Appeals for
the Fifth Circuit Denying Motion for Certificate
of Appealability (February 9, 2011).................. 18a
Order of the United States District Court for the
District of Texas Denying Request for
Certificate of Appealability (August 25, 2010) 20a
Order of the United States District Court for the
District of Texas (July 1, 2010).......................... 22a
Letter from Law Office of Attorney Jeremy Gordon
to Eugene Williams (February 9, 2015)........... 33a

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
(AUGUST 29, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
UNITED STATES OF AMERICA,
Plain tiff-Appellee,
v.
EUGENE H. WILLIAMS, JR.,
Defendant-Appellant.
No. 18-20800
Appeal from the United States District Court
for the Southern District of Texas
USDCNo. 4:17-CV-1912
Before: OWEN, SOUTHWICK, and
WILLETT, Circuit Judges.
PER CURIAM*
Eugene H. Williams, Jr., former federal prisoner
# 66170-179, appeals the denial of his writ of error
coram nobis wherein he sought to challenge his con* Pursuant to 5th Cir. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5th Cir. R. 47.5.4.

App.2a

viction for three counts of possession of a firearm not
registered to him, one count of possession of an
unlawfully transferred firearm, one count of possession
of a firearm not identified by serial number, and one
count of unlawful storage of explosive materials.
Williams argues that he is actually innocent of the
charges and that his conviction results in a complete
miscarriage of justice. Specifically, he contends that
the devices he was found to possess do not constitute
destructive devices or firearms under the National
Firearms Act. He also asserts that counsel was
ineffective for failing to raise this issue at trial in the
form of an affirmative defense or by requesting a jury
instruction. Finally, Williams argues that the
Government failed to prove the requisite mens rea.
In reviewing the denial of a writ of error coram
nobis, we review the district court’s “factual findings
for clear error, questions of law de novo, and the dis­
trict court’s ultimate decision to deny the writ for
abuse of discretion.” Santos-Sanchez v. United States,
548 F.3d 327, 330 (5th Cir. 2008), vacated on other
grounds, 559 U.S. 1046 (2010). “The writ of coram
nobis is an extraordinary remedy” that may be used
by “a petitioner no longer in custody who seeks to
vacate a criminal conviction in circumstances where
the petitioner can demonstrate civil disabilities as a
consequence of the conviction, and that the challenged
error is of sufficient magnitude to justify the extra­
ordinary relief.” United States v. Esoghue, 357 F.3d
532, 534 (5th Cir. 2004) (quoting Jimenez v. Trominski,
91 F.3d 767, 768 (5th Cir. 1996)). The writ is not a
substitute for an appeal and “will issue only when no
other remedy is available and when ‘sound reasons
exist[ ] for failure to seek appropriate earlier relief.’”

App.3a
United States v. Dyer, 136 F.3d 417, 422 (5th Cir.
1998) (quoting United States v. Morgan, 346 U.S. 502,
512 (1954)).
Williams’s arguments consist of claims that he
could have raised in his initial 28 U.S.C. § 2255 mo­
tion. As such, he is not entitled to coram nobis relief.
See Esogbue, 357 F.3d at 535. Furthermore, Williams
has not provided this court with sound reasons
justifying his failure to seek appropriate relief
earlier. See Dyer, 136 F.3d at 422. The inability to
satisfy the requirements for filing a successive § 2255
motion is not a sound reason for failing to seek relief
earlier. Esogbue, 357 F.3d at 535. Because Williams
has not demonstrated that the district court abused
its discretion by denying his writ of error coram
nobis, see Santos-Sanchez, 548 F.3d at 330, the judg­
ment of the district court is AFFIRMED.

App.4a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF TEXAS
(NOVEMBER 16, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
EUGENE H. WILLIAMS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
Civil Action No. H-4-17-1912
Criminal Action No. H-06-237-2
Before: David HITTNER, United States District Judge.
Pending before the Court is Petitioner Eugene
H. Williams Jr.’ s First Amended Petition for Writ of
Coram Nobis Pursuant to 28 U.S.C. § 1651(a) and
Memorandum of Law in Support (Document No. 8).
Having considered the motion, submissions, and
applicable law, the Court determines the motion should
be denied.

App.5a
I. Background
On August 17, 2006, a grand jury returned a sixcount indictment against Petitioner Eugene H. Williams
Jr. (“Williams”). The indictment charged Williams
with one count of receipt and possession of unregistered
firearms and destructive devices, one count of receipt
and possession of unlawfully transferred firearms,
two counts of possession of a firearm not registered
to Williams, one count of possession of one or more
firearms not identified by serial number, and one
count of aiding and abetting. On December 12, 2006,
after a seven-day jury trial, the jury convicted Wilbams
on all counts. On April 20, 2007, the Court imposed a
sentence of 120 months imprisonment, followed by two
years of supervised release. Williams timely appealed
his conviction and sentence to the United States Court
of Appeals for the Fifth Circuit. The Fifth Circuit
affirmed Williams’s conviction and sentence.! On
February 26, 2010, Williams filed a motion under 28
U.S.C. § 2255, alleging ineffective assistance of counsel.
On July 1, 2010, the Court denied the § 2255 motion.
On April 6, 2017, Williams was discharged from
supervised release. On August 1, 2018, Williams filed
a petition for a writ of coram nobis.
II. Standard of Review
Coram nobis is a common law writ of error that
asks the Court to review its own judgment based upon
alleged errors of fact resulting in a complete miscarriage
of justice. United States v. Grant, No. H-17-1498, 2017
WL 6765364, at *3 (S.D. Tex. Sept. 11, 2017) (Atlas,
1 United States v. Williams, 303 F. App’x 231, 232 (5th Cir. 2008)
(per curiam).

App.6a

J.). A writ of coram nobis is made available by the All
Writs Act, 28 U.S.C. § 1651(a).2 A petitioner may file
a petition for a writ of coram nobis to collaterally
attack a prior conviction “when the petitioner has
completed his sentence and is no longer ‘in custody’
for purposes of seeking relief under either 28 U.S.C.
§ 2241 or § 2255.” United States v. Dyer, 136 F.3d
417, 422 (5th Cir. 1998). The writ of coram nobis will
issue only when no other remedy is available and when
sound reasons exist for failing to seek appropriate
earlier relief. United States v. Esogbue, 357 F.3d
532, 535 (5th Cir. 2004). The writ of coram nobis is
an “extraordinary remedy” that is only employed to
correct errors “of the most fundamental character” and
cannot be used as a substitute for appeal. United
States v. Morgan, 346 U.S. 502, 511-12 (1954). The
petitioner bears the burden of overcoming the pre­
sumption that previous judicial proceedings were
correct. Id. at 512.
III. Law & Analysis
Williams contends he is entitled to a writ of
coram nobis because he is innocent of the charges of
which he was convicted. The Government contends
Williams’s petition for a writ of coram nobis should
be denied because Williams fails to provide “sound
reasons” for failing to seek appropriate earlier relief
and thus fails to show errors resulting in a complete
miscarriage of justice. In support of his innocence,
Williams contends: (l) the items he possessed do not
2 28 U.S.C. § 1651(a) provides: “The Supreme Court and all
courts established by Act of Congress may issue all writs
necessary or appropriate in aid of their respective jurisdictions
and agreeable to the usages and principles of law.”

App.7a
constitute “destructive devices” under the National
Firearms Act (“NFA”); (2) counsel rendered ineffective
assistance at trial by failing to raise an affirmative
defense that the items Williams possessed did not
constitute destructive devices under the NFA; (3) the
items Williams possessed were in fact registered; and
(4) the Government failed to prove the mens rea
requirement under the NFA. Williams does not allege
these contentions were unavailable at an earlier time.
Nor does Williams offer any reason as to why he did
not raise these contentions at an earlier time. The
Court finds Williams fails to show sound reasons for
failing to seek appropriate earlier relief. See Esogbue,
357 F.3d at 535 (explaining a petitioner fails to show
sound reasons for failing to seek appropriate earlier
relief when the petitioner fails to explain why conten­
tions, even though previously available, were never
raised). Thus, the Court finds Williams is not entitled
to a writ of coram nobis. Accordingly, Williams’s peti­
tion for a writ of coram nobis is denied. 3
IV. Conclusion
Accordingly, the Court hereby
ORDERS that Petitioner Eugene H. Williams Jr.’s
First Amended Petition for Writ of Coram Nobis
Pursuant to 28 U.S.C. § 1651(a) and Memorandum of
Law in Support (Document No. 8) is DENIED.

3 The Government further contends Williams’s petition for a writ
of coram nobis should be denied because: (l) the items Williams
possessed are “destructive devices” under the NFA; and (2) United
States Supreme Court authority forecloses Williams’s mens rea
contention. However, in light of the Court’s holding, the Court
need not address these contentions.

App.8a
THIS IS A FINAL JUDGMENT.
SIGNED at Houston, Texas, on this 16 day of
November, 2018.
/s/ David Hittner
United States District Judge

App.9a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF ARIZONA
(JUNE 24, 2015)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
EUGENE H. WILLIAMS,
Petitioner;
v.
SUSAN MCCLINTOCK, ET AL.,
Respondents.
No. CV 14-2285-TUC-RM(JR)
Before: Honorable Rosemary MARQUEZ, United
States District Judge.
Petitioner Eugene H. Williams, who is confined
in the Federal Correctional Institute-Safford in Safford,
Arizona, has filed a pro se Petition for Writ of Habeas
Corpus pursuant to 28 U.S.C. § 2241 (Doc. l) and has
paid the $5.00 filing fee.
I.

Background

Petitioner was convicted following a jury trial in
the United States District Court for the Southern
District of Texas of six counts of firearms offenses
under various sections of 26 U.S.C. § 5801, et seq,

App.lOa

case #CR-H-06-237-02-S. All counts stemmed from
Petitioner’s handling of “Noise Flash Diversionary
Devises” (“NFDDs”), also known as “flash bangs” or
“stun grenades.” Petitioner was sentenced on April 20,
2007 to a 120-month term of imprisonment. Petitioner
appealed his conviction on the grounds that the
statute under which he was convicted was unconstitu­
tionally vague. The United States Court of Appeals
for the Fifth Circuit affirmed Petitioner’s conviction
and sentence on December 18, 2008. On February 26,
2010, Petitioner filed a Motion to Vacate, Set Aside,
or Correct Sentence pursuant to 28 U.S.C. § 2255
alleging ineffective assistance of counsel because his
appellate counsel failed to present what Petitioner
believed to be the strongest ground for reversal (a
ground not raised in the current Petition). The
Southern District of Texas dismissed Petitioner’s
§ 2255 motion with prejudice on July 1, 2010, and the
Fifth Circuit Court of Appeals denied Petitioner’s
application for certificate of appealability on February
10, 2011.
II.

Petition

In his § 2241 Petition, Petitioner names Susan
McClintock as Respondent. Petitioner raises two
grounds for relief. In Ground One, Petitioner claims
actual innocence of the crimes for which he was
convicted. He alleges that although the government
presented evidence at trial that the NFDDs in his
possession were “explosive devices,” it failed to present
any evidence showing that they were “designed or
redesigned” for use as a weapon, and, he alleges, this
is a necessary element of those crimes. He further
contends that the NFDDs were not designed or re­
designed for use as a weapon and that he is accordingly

App.lla

actually innocent. In Ground Two, Petitioner alleges
ineffective assistance of counsel because both Petition­
er’s trial and appellate counsel “completely failed to
object to the Government’s failure to prove the ele­
ment.”
III. Law
Generally, a motion to vacate sentence under 28
U.S.C. § 2255 is the appropriate way to challenge a
federally-imposed conviction or sentence on the basis
that “the sentence was imposed in violation of the
Constitution or laws of the United States, or that the
court was without jurisdiction to impose such sentence,
or that the sentence was in excess of the maximum
authorized by law.” 28 U.S.C. § 2255(a); Tripati v.
Henman, 843 F.2d 1160, 1162 (9th Cir. 1988). A § 2241
petition for writ of habeas corpus is not a substitute
for a motion under § 2255. McGhee v. Hanberry, 604
F.2d 9, 10 (5th Cir. 1979).
A court will not consider a § 2241 petition by a
prisoner “if it appears that the applicant has failed to
apply for relief, by motion, to the court which sentenced
him, or that such court has denied him relief, unless
it also appears that the remedy by motion is inadequate
or ineffective to test the legality of his detention.” 28
U.S.C. § 2255(e); United States v. Pirro, 104 F.3d 297,
299 (9th Cir. 1997). This exception is sometimes
referred to as the “savings clause” or “escape hatch.”
See Alaimalo v. United States, 645 F.3d 1042, 1047
(9th Cir. 2011).
The savings clause under § 2255(e) is narrow.
Ivy v. Pontesso, 328 F.3d 1057, 1059 (9th Cir. 2003)
(citing Pirro, 104 F.3d at 299). A § 2255 remedy is
not inadequate or ineffective to test the legality of a

App.l2a

petitioner’s detention merely because the statute of
limitations bars the petitioner from filing a motion
under § 2255, the sentencing court has denied relief
on the merits, or § 2255 prevents the petitioner from
filing a second or successive petition. See id.-, Moore
v. Reno, 185 F.3d 1054, 1055 (9th Cir. 1999); Charles
v. Chandler, 180 F.3d 753, 757-58 (6th Cir. 1999);
Tripati, 843 F.2d at 1162. Rather, a § 2255 remedy is
only inadequate or ineffective to test the legality of
a petitioner’s detention when the petitioner claims
(l) to be factually innocent of the crime for which he
has been convicted, and (2) to have never had an
“unobstructed procedural shot at presenting that claim.”
Harrison v. Ollison, 519 F.3d 952, 959 (9th Cir. 2008)
(quoting Stephens v. Herrera, 464 F.3d 895, 898 (9th
Cir. 2006)); see also Alaimalo, 645 F.3d at 1047 (“A
petitioner is actually innocent when he was convicted
for conduct not prohibited by law.”).
The burden of coming forward with evidence
affirmatively showing the inadequacy or ineffectiveness
of a remedy under § 2255 rests with the petitioner.
Jeffers v. Chandler, 253 F.3d 827, 830 (5th Cir. 2001);
Charles, 180 F.3d at 756; McGhee, 604 F.2d at 10;
Redfield v. United States, 315 F.2d 76, 83 (9th Cir.
1963); see also Santivanez v. Warden FCC ColemanUSP II, 416 Fed. Appx. 833, 835 (llth Cir. 2011).
Still, “[c]ourts have a duty to construe pro se pleadings
liberally.” Bernhardt v. Los Angeles Cnty., 339 F.3d
920, 925 (9th Cir. 2003); see also Haines v. Kerner,
404 U.S. 519, 520 (1972) (per curiam).
In the Ninth Circuit, a § 2241 petitioner asserting
“a claim of actual innocence for purposes of the escape
hatch of § 2255 is tested by the standard articulated
by the Supreme Court in Bousley v. United States,

App.l3a
523 U.S. 614, 623 (1998).” Stephens, 464 F.3d at 898.
In BousJey the Supreme Court held that ‘“[t]o establish
actual innocence, petitioner must demonstrate that,
in light of all the evidence, it is more likely than not
that no reasonable juror would have convicted him.’”
Id. (quoting Bousley, 523 U.S. at 523).
To assess whether a petitioner had an unobstruct­
ed procedural shot to pursue his claim, the court
considers “(l) whether the legal basis for petitioner’s
claim ‘did not arise until after he had exhausted his
direct appeal and first § 2255 motion;’ and (2) whether
the law changed ‘in any way relevant’ to petitioner’s
claim after that first § 2255 motion.” Harrison, 519 F.3d
at 960 (quoting Ivy, 328 F.3d at 1060-61). “In other
words, it is not enough that the petitioner is presently
barred from raising his claim of innocence by motion
under § 2255. He must never have had the opportunity
to raise it by motion.” Ivy, 328 F.3d at 1060. Unless
Petitioner meets these criteria, he must seek relief
under § 2255 in the sentencing court or seek certifica­
tion to file a successive § 2255 motion, rather than in
a § 2241 Petition.
IV. Petitioner’s Actual Innocence Claim
As a preliminary matter, Petitioner is mistaken
regarding the effect of the absence of any evidence
about the design intention of NFDDs during his trial.
As Petitioner states in his Petition, “ [t] he legislative
history of the National Firearms Act, 26 U.S.C. §§ 5801
et seq., specifically states that the exception of‘designed
or redesigned as a weapon’ is an affirmative defense.
See Senate Judiciary Committee Report, S.Rep.No.
1501, 90th Cong., 2d Sess. 47[, 558] (1968).” (Doc. 1 at
8.) In line with the current understanding of which

App.l4a

party bears the burden of proof of elements of an
affirmative defense, the Senate Judiciary Committee
Report goes on to state that “[t]he government is not
required to allege or prove that exception is inapplic­
able.” Id.\ see also, e.g., United States v. La Cock, 366
F.3d 883, 889 (10th Cir. 2004) (citing United States
v. Oba, 448 F.2d 892, 894 (9th Cir. 1971)) (“Along
with several other circuits, we have previously held that
the determination as to whether a device was ‘designed
[or] redesigned for use as a weapon” is an affirmative
defense, not an element of the crime that must be
alleged in the indictment.” (emphasis in original)).
Accordingly, Petitioner’s claim of constitutional error
based upon the government’s failure to prove a
necessary element of the charge does not withstand
scrutiny.
This does not, however, entirely eliminate Peti­
tioner’s actual innocence claim. The Ninth Circuit has
previously held that the satisfaction of an affirmative
defense can serve as a valid argument for actual
innocence. In Smith v. Baldwin, the court considered
whether a petitioner’s claim that his conviction was a
miscarriage of justice because he was actually innocent
was sufficient to overcome his procedural default.
510 F.3d 1127, 1139-41 (9th Cir. 2007). The Court
held that to make a successful claim that his innocence
should overcome his default, petitioner must prove
that “it is more likely than not that no reasonable
juror would have found that he failed to establish
any of the . . . elements of the affirmative defense by
a preponderance of evidence.” Id. (citing Jaramillo v.
Stewart, 340 F.3d 877, 882-83 (9th Cir. 2003); Griffin
v. Johnson, 350 F.3d 956, 963-64 (9th Cir. 2003)).
Here, at this screening stage, this Court must con-

App.l5a
sider whether Petitioner has alleged facts that would
support such a finding. Petitioner contends that NFDDs
are “light/sound diversionary device [si (not destructive
device[s]) designed to emit a brilliant light and loud
noise upon detonation.” (Doc. 1 at 12 (emphasis in
original).) He alleges that their purpose is to “stun,
disorient, and temporarily blind its target, creating a
window of time in which police officers can safely enter
and secure a potentially dangerous area.” (Id) This
Court finds that these allegations sufficiently to state
a claim of actual innocence by use of an affirmative
defense.
V.

Petitioner’s Unobstructed Procedural Shot Claim

Petitioner does not allege that the legal basis of
his claim did not arise until after he had exhausted
his direct appeal and § 2255 motion. Petitioner instead
states that he did not discover the legal basis of that
claim until he reviewed his case in light of Descamps
v. United States, 133 S. Ct. 2276 (2013). But Petitioner
does not allege that Descamps changed the law in any
way relevant to his claim. Rather, he asserts that
Descamps focused on the elements of a criminal statute,
thus causing him to consider for the first time whether
the government had proven all of the elements of the
statute in his case. Petitioner cites a number of addi­
tional cases for the proposition that the government
must prove every element of a crime at trial and for
the proposition that evidence showing that something
is an “explosive device” does not, of itself, show that
it was “designed or redesigned for use as a weapon.”
With few exceptions, however, the cases upon which
Petitioner relies existed well before he went to trial
and were available before February 2010 when he filed
his first § 2255 motion. Thus, Petitioner has not

App.l6a
shown, nor can he show, that the basis for his actual
innocence claim did not exist until after he had ex­
hausted his direct appeal and first § 2255 motion.l
Because Petitioner has failed to show that a
remedy under § 2255 is inadequate or ineffective, the
Petition and this action will be summarily dismissed
for lack of jurisdiction. See 28 U.S.C. § 2255(a); Tripati,
843 F.2d at 1163.
IT IS ORDERED:
(1) Petitioner’s Petition for Writ of Habeas Cor­
pus under 28 U.S.C. § 2241 (Doc. l) and this
case are dismissed.
(2) The Clerk of Court must enter judgment
accordingly and close this case.
(3) Although Petitioner has brought his claims
in a § 2241 petition, a certificate of appealability is required where a § 2241 petition
1 Petitioner’s claim of ineffective assistance of counsel rests on
allegations that neither his trial nor his appellate counsel
objected that the government failed to prove a necessary element of
his convictions. As noted above, it was not the Government’s
burden to prove whether the NFDDs were designed for use as a
weapon. To the extent that Petitioner alleges ineffective assistance
of counsel to show that he lacked an unobstructed procedural shot to
pursue his actual innocence claim, counsel’s alleged errors at
trial and direct appeal do not show that § 2255 is an inadequate
remedy. Even where a petitioner retains counsel when filing a
§ 2255 motion, an ineffective assistance claim based on counsel's
alleged failure to raise an actual innocence claim at that juncture
does not satisfy the narrow savings clause of § 2255(e). See Abdullah
v. Hedrick, 392 F.3d 957, 963-64 (8th Cir. 2004) (finding that failure
of retained counsel to raise an actual innocence claim in Petitioner’s
§ 2255 motion did not show that Petitioner was denied an adequate
procedure for presenting that claim).

App.l7a

attacks the petitioner’s conviction or sentence.
See Porter v. Adams, 244 F.3d 1006 (9th.
2001). Pursuant to Rule 11(a) of the Rules
Governing Section 2255 Cases, in the event
Movant files an appeal, the Court declines
to issue a certificate of appealability because
reasonable jurists would not find the Court’s
procedural ruling debatable. See Slack v.
McDaniel, 529 U.S. 473, 484 (2000).
Dated this 24th day of June, 2015.
Is/ Honorable Rosemary Marquez
United States District Judge

App.l8a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT DENYING
MOTION FOR CERTIFICATE OF APPEALABILITY
(FEBRUARY 9, 2011)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
UNITED STATES OF AMERICA,
Plain tiff-Appellee,
v.
EUGENE H. WILLIAMS, JR.
Defen dan t-Appellan t.
No. 10-20522
USDC No. 4:10-CV-667
USDC No. 4:06-CR-237-2
Appeal from the United States District Court
for the Southern District of Texas
Before: Eugene DAVIS, United States Circuit Judge.
Eugene H. Williams, Jr., federal prisoner # 66170179, seeks a certificate of appealability (COA) to appeal
the dismissal of his 28 U.S.C. § 2255 motion challen­
ging his convictions for three counts of possession of
a firearm not registered to him, one count of posses­
sion of an unlawfully transferred firearm, one count
of possession of a firearm not identified by serial

App.l9a
number, and one count of unlawful storage of explosive
materials. Williams argues that he was denied the
effective assistance of trial counsel because counsel
failed to present issues challenging the validity of the
statutes of conviction, to challenge the lack of evidence
to support his convictions, to argue that he did not
knowingly possess firearms without serial numbers,
and to argue that the explosive materials were properly
stored. Williams fails to renew his claim that he was
denied the effective assistance of counsel because
counsel failed to argue that the district court erred in
refusing to instruct the jury on the public authority
defense. Thus, the argument is abandoned. See Yohey
v. Collins, 985 F.2d 222, 224-25 (5th Cir. 1993).
To obtain a COA, a prisoner must make “a sub­
stantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473,
483-84 (2000). A movant satisfies the COA standard
<cby demonstrating that jurists of reason could dis­
agree with the district court’s resolution of his con­
stitutional claims or that jurists could conclude the
issues presented are adequate to deserve encourage­
ment to proceed further.” Miller-El v. Cockrell, 537
U.S. 322, 327 (2003). Williams has failed to make
this showing.
Williams’s motion for a COA is DENIED.
Is/ W. Eugene Davis
United States Circuit Judge

App.20a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF TEXAS DENYING
REQUEST FOR CERTIFICATE OF
APPEALABILITY
(AUGUST 25, 2010)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA,
v.
EUGENE H. WILLIAMS, JR.,
Defendants.
C.R. Action No. 4:06-237 (02)
Before: David HITTNER, United States District Judge.
Pending before the Court is Defendant’s Request
for a Certificate of Appealability (Document No._).
Having considered the motion and the applicable law,
the Court determines that the motion should be denied.
Accordingly, the Court hereby
ORDERS that the Request for a Certificate of
Appealability (Document No._) is DENIED.
Signed the 25 day of August, 2010.
/si David Hittner

App.21a
United States District Judge

App.22a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF TEXAS
(JULY 1, 2010)
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
EUGENE H. WILLIAMS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
Criminal Action No. H-06-237-2
Civil Action No. H-10-667
Before: David HITTNER, United States District Judge.
Pending before the Court are Petitioner Eugene
H. Williams’s, Jr. Motion under 28 U.S.C. § 2255 to
Vacate, Set Aside, or Correct Sentence by a Person in
Federal Custody (Civil Document No. 1, Criminal
Document No. 173) and Respondent United States of
America’s Response to Petitioner’s Motion for Relief
Under 28 U.S.C. § 2255 and Motion to Dismiss (Civil
Document No. 2, Criminal Document No. 175). Having
considered the motions, submissions, and applicable
law, the Court determines Petitioner’s motion should
be denied and Respondent’s motion should be granted.

App.23a
Background
On August 17, 2006, a grand jury charged Peti­
tioner Eugene H. Williams, Jr. (“Williams”) by a six
count superseding indictment. Count one of the indict­
ment charged Williams with receipt and possession
of one or more firearms, listing 39 stun grenades
not registered to Williams in the National Firearms
Registration and Transfer Record (“NFRTR”), in viola­
tion of 26 U.S.C. §§ 5841, 5861(d), and 5871. Count
two charged Williams with receipt and possession of
unlawfully transferred firearms, listing 34 destructive
devices, in violation of 26 U.S.C. §§ 5812, 5861(b) and
5871. Count three charged Williams with possession
of a firearm, listing one precision ordinance tactical
blast stun grenade not registered to Williams in the
NFRTR, in violation of 26 U.S.C. §§ 5841, 5861(d)
and 5871. Count four charged Williams with possession
of a firearm, fisting one destructive device not registered
to Williams in the NFRTR, in violation of 26 U.S.C.
§§ 5841, 5861(d) and 5871. Count five charged Williams
with possession of one or more firearms, listing five
destructive devices not identified by a serial number,
in violation of 26 U.S.C. §§ 5842(c), 586l(i) and 5871.
Count six charged Williams with aiding, abetting,
counseling, and assisting in the unlawful storage of
high explosives, listing 78 destructive devices, in
violation of 18 U.S.C. §§ 2, 842(j) and 844(b), and 27
C.F.R. § 55.201 (1987).
On September 21, 2006, Williams entered a plea
of not guilty to all charges against him. On November
6, 2006, Williams filed notice of a Public Authority
Defense declaring he acted with public authority during
the time period of the charged offenses. Williams
listed four law enforcement agencies he was involved

App.24a

with and four agency members on whose behalf he
acted, while naming 22 witnesses he intended to rely
upon in support of his claim to the public authority
defense. The Government responded on November 14,
2006 denying that Williams “possessed any requisite
public authority in fact to negate his guilt.” The
Government argued that the Cypress Creek Emergency
Medical Services (“CCEMS”), an agency Williams
claimed to be involved with, is a private paramedical
business and thus does not have the ability to grant
public authority according to Rule 12.3 of the Federal
Rules of Criminal Procedure. The Government further
contested that while it is true that Williams was
employed as a reserve officer with the Hempstead Police
Department, the agency was not the registered posses­
sor of any of the charged destructive devices and thus
could not have granted public authority to Williams.
Moreover, the Government stated that Williams had
never been an employee of the other two law enforce­
ment agencies that he claimed to be involved with;
therefore, any transfer to him by these agencies would
still require registration in the NFRTR. The Govern­
ment further proffered that none of the agency members
Williams claimed he acted on behalf of would testify
that they granted any public authority upon Williams
for the charged violations.
During a pre-trial conference held on November 30,
2006, the Court discussed the issue of a public author­
ity defense indicating that it would allow Williams to
present evidence of a defense but noted that a jury
instruction on the defense may not be established. On
December 4, 2006, Williams proceeded to a jury trial.
During trial, the Government inquired several times
as to the basis for establishing the defense of public

App.25a

authority. At the close of the case, the jury was excused
and Williams’s counsel presented evidence justifying
the establishment of a jury instruction on the public
authority defense. After hearing the Government’s posi­
tion, the Court denied the request to provide a jury
instruction on the public authority defense. On Decem­
ber 14, 2006, the jury returned a verdict convicting
Williams as charged.
On April 20, 2007, Williams was sentenced to a
total of 120 months imprisonment under all counts.
On the same day, Williams’s trial counsel filed a
notice of appeal. Shortly thereafter, Williams’s attorney
successfully moved to withdraw and attorney David
Adler was appointed to represent Williams on appeal.
On December 18, 2008, the Fifth Circuit affirmed the
judgment of the Court.
On February 26, 2010, Williams timely filed the
instant motion to vacate, set aside, or correct his sen­
tence pursuant to 28 U.S.C. § 2255 (“§ 2255”). Williams
asserts that his appellate counsel rendered ineffective
assistance by failing to raise “the best issue on appeal:
that the district court erred by refusing to instruct
the jury on the defense of public authority.”! The
Government contends Williams’s counsel was not
deficient for failing to raise on appeal the denial of an
1 In an attachment to his § 2255 motion, Williams makes a
secondary claim of ineffective assistance of trial counsel. The
attachment identifies facts that Williams claims were not included
in trial that allegedly demonstrate his trial counsel rendered
ineffective assistance. However, Williams does not specify how
trial counsel’s assistance was ineffective, but merely makes
conclusory statements. See Ross v. Estelle, 694 F.2d 1008, 1012
(5th Cir. 1983) (holding that “mere conclusory allegations do not
raise a constitutional issue in a habeas proceeding.”).

App.26a

instruction on the public authority defense because
an attorney’s failure to pursue a meritless argument
“cannot form the basis of a successful ineffective
assistance of counsel claim because the result of the
proceeding would not have been different had the
attorney raised the issue.” Accordingly, the Court
must determine whether Williams establishes that
he received ineffective assistance of counsel because
appellate counsel allegedly failed to raise the best
issue on appeal.
Standard of Review
To maintain a successful collateral attack under
§ 2255, a petitioner must overcome a considerably more
stringent standard of review than would exist on
direct appeal. See United States v. Frady, 456 U.S.
152, 166 (1982); United States v. Shaid, 937 F.2d 228,
232 (5th Cir. 1991). Once a defendant has waived or
exhausted his opportunity to appeal, a court is entitled
to presume the defendant stands fairly and finally
convicted. Frady, 456 U.S. at 164-65. After a conviction
becomes final, on collateral attack a defendant may
only raise issues of constitutional or jurisdictional
magnitude. Shaid, 937 F.2d at 232. In addition, once
issues in a particular case have been raised and
decided on a direct appeal, they are barred from
collateral review under § 2255. United v. Rocha, 109
F.3d 225, 229 (5th Cir. 1997); United States v. Kalish,
780 F.2d 506, 508 (5th Cir.), cert, denied, 476 U.S.
1118 (1986).
Law & Analysis
Williams contends his conviction and sentence
should be vacated because he was deprived of his Sixth

App.27a
Amendment right to effective assistance of counsel.
Williams asserts he received ineffective assistance
because his appellate counsel failed to raise what
Williams believed to be the best issue on appeal: that
the Court erred by refusing to instruct the jury on
the defense of public authority. The appellate counsel
instead argued that the statute Williams violated
was unconstitutionally vague, which Williams believed
to be a weaker argument.
A claim of ineffective assistance of counsel is
properly raised in a § 2255 motion because it raises
issues of constitutional magnitude, which generally
cannot be resolved on direct appeal. See United v.
Bass, 310 F.3d 321, 325 (5th Cir. 2002). To prevail on
a claim of ineffective assistance of counsel, a petitioner
must demonstrate: (l) the counsel’s performance was
deficient; and (2) the deficient performance prejudiced
the petitioner’s defense. Strickland v. Washington,
466 U.S. 668, 687 (1984); United States v. Herrera,
412 F.3d 577, 580 (5th Cir. 2005). Generally, to prove
deficient performance, a petitioner must show: (l)
“counsel made errors so serious that counsel was not
functioning as the counsel guaranteed the defendant
by the Sixth Amendment;” and (2) the attorney’s per­
formance “fell below an objective standard of
reasonableness.” Strickland, 466 U.S. at 687-88. To
prove prejudice, the petitioner must show that his or
her attorney made such serious errors that the
petitioner was deprived of a fair trial. Id. at 687.
Stated differently, a petitioner must show that “but
for counsel’s errors, there is a reasonable probability
that the final result would have been different. . .”
Ramirez v. Dretke, 398 F.3d 691, 698 (5th Cir. 2005)
(citing Little v. Johnson, 162 F.3d 855, 862 (5th Cir.

App.28a

1998)). A failure to establish either prong of the Strick­
land test “will defeat an ineffective assistance of
counsel claim.” Ramirez, 398 F.3d at 698 (citing Green
v. Johnson, 160 F.3d 1029, 1035 (5th Cir. 1998)).
The movant bears the burden of proving that he is
entitled to relief. Moya v. Estelle, 696 F.2d 329, 332
(5th Gir. 1983). Moreover, in determining whether
counsel’s performance is constitutionally deficient,
courts “indulge a strong presumption that counsel’s
conduct falls within the wide range of reasonable
assistance.” Strickland, 466 U.S. at 689. Scrutiny of
counsel’s performance should be highly deferential,
and a court should be careful not to second-guess
counsel’s legitimate strategic choices. Id. at 694; Yohey
v. Collins, 985 F.2d 222, 228 (5th Cir. 1993). Repre­
sentation is not ineffective merely because, with the
benefit of hindsight, the reviewing court disagrees
with counsel’s strategic choices. Green v. Johnson,
116 F.3d 1115, 1122 (5th Cir. 1997). “A conscious and
informed decision on trial tactics and strategy cannot
be the basis for constitutionally ineffective assistance
of counsel unless it is so ill-chosen that it permeates
the entire trial with obvious unfairness.” Garland v.
Maggio, 111 F.2d 199, 206 (5th Cir. 1983) (citing
Fitzgerald v. Estelle, 505 F.2d 1334 (5th Cir. 1975)).
Moreover, “an attorney’s failure to raise a meritless
argument. . . cannot form the basis of a successful
ineffective assistance of counsel claim because the
result of the proceeding would not have been differ­
ent had the attorney raised the issue.” United States
v. Kimler, 167 F.3d 889, 893 (5th Cir. 1999).
Williams contends his counsel was deficient for fail­
ing to attack the Court’s refusal to instruct the jury
on the defense of public authority. Williams asserts

App.29a

he “reasonably believed [he] had the authority to
possess the devices at issue.” Therefore, Williams
must prove that but for his attorney’s failure to raise
this issue on appeal, there is a reasonable probability
that the case would not have been affirmed by the
Fifth Circuit. See United States v. Glinsey, 209 F.3d
386, 392 (5th Cir. 2000). Williams cannot make such
a showing.
Williams’s counsel’s failure to raise this issue
would not have changed the outcome of the appeal and
thus was not deficient because Williams was unable
to meet the required elements to establish the
affirmative defense of public authority.2 “The public
authority defense is available when the defendant is
engaged by a government official to participate or
assist in covert activity.” United States v. Spires, 79
F.3d 464, 466 n.2 (5th Cir. 1996). Any claims Williams
makes giving him the right to engage in the conduct
he was charged with is belied by the record in this
case.
First, there was no evidence that a government
official had the authority to empower Williams to
engage in the acts to which he was found guilty. In
his pre-trial notice of a public authority defense,
Williams identified Royce Glenn Smith, Charles A.
Malouff, Jr., Charlie Jones, and Brad England as the
authorizing government agents on whose behalf he
acted. However, during trial, all four agents testified
2 Williams claims that the facts identified in his attachment to his
§ 2255 motion were excluded from his appeal by his appellate
counsel. However, even assuming these facts are true, Williams
does not meet the elements of the affirmative defense of public
authority.

App.30a
that they had no authority and did not empower Will­
iams to engage in the charged conduct.3 Thus, Williams
already failed to meet one element of the defense.
Moreover, there was no evidence of a covert activity
that Williams was involved in which required an
authorizing government official to empower Williams
to engage in the criminal acts with which he was con­
victed. Thus, Williams failed to meet another ele­
ment of the defense.
Williams also testified that he relied upon an
understanding between the Federal Bureau of Inves­
tigation, the United States Bureau of Alcohol, Tobacco,
Firearms and Explosives (“ATF”), the Texas National
Guard, and the Texas Department of Public Safety,
and the Cypress Creek Advanced Tactical Team
(“CCATT”) of CCEMS, an agency Williams was
involved with, to establish the defense of public
authority. Williams supplied letters illustrating agree­
ments between the agencies and CCATT. However,
not only were the letters written by Williams while
he was employed by ATF between 1989 and 1998,
3 In his rebuttal to the Government’s response, Williams admits
that Smith testified that he gave no authority for Williams to
engage in the charged conduct. However, Williams asserts that
the testimony is inconsistent with the “police departments
sponsorship of the tactical training programs” and that his trial
counsel failed to address this fact. However, Williams’s subjective
belief that his counsel should have made certain arguments or
used evidence in a particular way, but failed to do so, does not
render his counsel’s performance deficient. See United States v.
Nguyen, 504 F.3d 561, 576 (5th Cir. 2007). Moreover, the Court
cannot construe the arguments trial counsel failed to make as
anything other than trial strategy, and this strategy cannot be
said to be “so ill chosen that it permeates the entire trial with
obvious unfairness.” United States v. Jones, 287 F.3d 325, 331
(5th Cir. 2002).

App.31a
but the letters also did not indicate that CCATT was
authorized to possess or transfer any flash bang or
stun grenades thereafter.
Williams cannot prove that his appellate counsel
was ineffective—that the outcome would have been
different absent counsel’s alleged deficiencies. See
Strickland, 466 U.S. at 693. Williams’s appellate
counsel did not provide ineffective assistance by failing
to attack the district court’s denial to instruct the
jury of the public authority defense because Williams
did not meet the elements of the defense. Thus, the
Court finds Williams’s claims are without merit, his
§ 2255 motion should be denied, and his petition
should be dismissed.4 Accordingly, the Court hereby
ORDERS that Petitioner Eugene H. Williams’s, Jr.
Motion under 28 U.S.C. § 2255 to Vacate, Set Aside,
or Correct Sentence by a Person in Federal Custody
(Civil Document No. I, Criminal Document No. 57) is
DENIED. The Court further

4 In his rebuttal to the Government’s response, Williams also
contends that his trial counsel rendered ineffective assistance by
failing to address the congressional intent of the statute. Again,
representation is not ineffective merely because, with the benefit of
hindsight, counsel’s strategic trial choices proved ineffective.
Moreover, the Fifth Circuit expressly affirmed the Court’s judgment
and addressed the constitutionality and application of the statute,
thus, the issue is not subject to consideration in the instant
proceeding. United States v. Kalish, 780 F.2d 506, 508 (5th Cir.),
cert, denied, 476 U.S. 1118 (1986) (citing United States v. Jones,
614 F.2d 80, 82 (5th Cir. 1980)) (explaining that the court is not
required to deal with issues disposed of on direct appeal). There­
fore, because Williams has produced no evidence that his counsel’s
performance fell below an objective standard of reasonableness,
Williams’s claim for ineffective assistance of trial counsel fails.

App.32a

ORDERS that Respondent United States of
America’s Response to Petitioner’s Motion for Relief
Under 28 U.S.C. § 2255 and Motion to Dismiss (Civil
Document No. 2, Criminal Document No. 175) is
GRANTED. The Court further ORDERS that Peti­
tioner’s claims are DISMISSED WITH PREJUDICE.
THIS IS A FINAL JUDGMENT.
SIGNED at Houston, Texas, on this 1 day of July,
2010.
/s/ David Hittner
United States District Judge

App.33a
LETTER FROM LAW OFFICE OF ATTORNEY
JEREMY GORDON TO EUGENE WILLIAMS
(FEBRUARY 9, 2015)
Jeremy Gordon
Attorney at Law
P.O. Box 2275
Mansfield, TX 76063
1848 Lone Star Road
Suite 106
Mansfield, TX 76063
Via Certified Mail,
Receipt No. 7013 1710 0000 7919 3603

Mr. Eugene Williams
Reg. No. 66170-170
727 East Cesar E. Chavez Blv.
Suite B-138
San Antonio., TX 78206
Legal Mail—Open Only in Front of Inmate
Re: Case Review
Dear Mr. Williams:
You requested our advice and counsel to determine
your potential options for seeking relief in United
States v. Williams, Case No. 4:06-cr-00237-2 (S.D. Tex.).
I have fully and carefully reviewed the salient
records in your case, including; indictment; Motion to
Dismiss Based on Void for Vagueness; Motion to Quash
along with the Government’s Response; Motion for

App.34a

Discovery; all documents related to the Jury Trial,
including the Transcripts; Transcript of Sentencing;
Judgment. I have also reviewed all of the documents
related to your direct appeal and your Motion to Vacate
Pursuant to 28 U.S.C. § 2255.
On August 17, 2006, you were charged in a sixcount superseding indictment relating to the possession
of unregistered destructive devices, most of them
stun grenades. You pled not guilty and proceeded to
jury trial. The chief defense strategy was a public
authority defense. However, at the close of the case, the
judge denied your request to provide a jury instruction
on the public authority defense. The jury ultimately
found you guilty on all counts and, on April 20, 2007,
you were sentenced to an aggregate 120 months
imprisonment. Your direct appeal was affirmed by
the Fifth Circuit on December 18, 2008.
During my review of your case, I focused primarily
on what arguments, if any, could you bring forth in a
collateral review proceeding.
As a preliminary matter, the primary method of
collaterally attacking a Sentence, especially on the
basis of ineffective assistance of counsel, is a 28
U.S.C. § 2255 motion. A Motion to Vacate. Set Aside,
or Correct Sentence under § 2255 must be filed in the
sentencing court and must he brought within one year
of your judgment becoming “final”. 28 U.S.C. § 2255(e);
see also Clay v. United States, 537 U.S. 522, 527 (2003).
You filed your first § 2255 motion on February 26,
2010, which the District Court denied on July 1, 2010.1
1 Additionally, you applied for a certificate of appealability to
appeal the dismissal of your § 2255 motion, which was denied on
February 9, 2011.

App.35a

Unfortunately, any further or subsequent tiling
under 28 § 2255 would be deemed “second or successive
motion,” which is only permissible under very narrow
circumstances. 28 U.S.C. § 2255(h) provides that a
“second or successive motion” must be certified to
contain:
(1) newly discovered evidence that if proven and
viewed in light of the evidence as a whole,
would be sufficient to establish by clear and
convincing evidence that no reasonable
factfinder would have found the movant
guilty of the offense; or
(2) a new rule of constitutional law, made
retroactive to cases on collateral review the
Supreme Court, that was previously unavail­
able.
28 U.S.C. § 2255(h), in your case, there is no “newly
discovered evidence” to present that would allow you to
certify a second or successive petition. Additionally,
there is no retroactively applicable rule of constitutional
law that could be raised on your behalf to certify a
second or successive petition. Thus, the possibility of
a second § 2255 motion is unavailable.
Despite this bar “second or successive motions,”
in some instances inmates can bring habeas claims
through 28 U.S.C. § 2255(e), which is commonly re­
ferred to as the “savings clause.” Section 2255(e) allows
petitioners to bring claims under 28 U.S.C. § 2241
that would otherwise be required to be brought under
§ 2255, but only if the remedy under § 2255 is
“inadequate or ineffective to test the legality” of the
detention. Claims under § 2241 are filed in the judicial
district in which the inmate is incarcerated.

App.36a

In your case, a petition under § 2241 must be filed
in the United States District Court for the Western
District of Texas. The Fifth Circuit, unfortunately,
has held that:
[T]he savings clause applies to a claim (i) that
is based on a retroactively applicable Supreme
Court decision which establishes that the
petitioner may have been convicted of a non­
existent offense and that was foreclosed by
circuit law at the time when the claim should
have been raised in the petitioner’s trial,
appeal, or first § 2255 motion.
Reyes-Requena v. United States, 24 F.3d 893, 904
(5th Cir. 2001). In your case, there is no retroactively
applicable Supreme Court decision that altered the
substantive law in your case. Thus, we would not be
able to meet the Fifth Circuit’s § 2255 savings clause
standard.

Supreme Court
PRESS

